Service List
Kansas Natural Resource Coalition v. U.S. Department of Interior

Counsel for Respondents U.S. Department of Interior, et al.:
Elizabeth Prelogar
Acting Solicitor General
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
Email: SupremeCtBriefs@usdoj.gov
Telephone: (202) 514-2217
Bridget Kennedy McNeil
United States Department of Justice
Environment and Natural Resources Division
999 18th Street, Suite 370
Denver, CO 80202
Telephone: (303) 844-1484
Email: bridget.mcneil@usdoj.gov
Brian C. Toth
United States Department of Justice
Environment & Natural Resources Division
P.O. Box 7415
Ben Franklin Station
Washington, DC 20044
Telephone: (202) 305-0639
Email: brian.toth@usdoj.gov

